HHS/OIG, Audit -"Audit of Health Resources and Services Administration Cooperative Agreement Number U69-HA-00040
University of Southern California Los Angeles, California,"(A-09-02-01004)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Audit of Health Resources and Services Administration Cooperative Agreement Number U69-HA-00040 University of Southern
California Los Angeles, California," (A-09-02-01004)
July 9, 2004
Complete
Text of Report is available in PDF format (2.27 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this audit were to evaluate the effectiveness of the project management and the allowability of the costs.
Our review disclosed that the University of Southern California (USC) did not meet the project objectives, conducted research
on human subjects without proper authorization, did not adequately resolve a conflict of interest, and claimed costs that
were not allowable for Federal
reimbursement.  This occurred because:  (i) inexperienced personnel were assigned to implement critical aspects
of the program, (ii) the co-principal investigator did not agree with the Institutional
Review Boards conclusion that the program was conducting research involving human subjects, (iii) USC had not followed through
to rectify the conflict of interest situation, and (iv) oversight of the award expenditures was not adequate. We made recommendations
to improve USCs grant administration and oversight, and to refund over $1.0 million in unallowable
costs.